<html>
<title> - HUMAN RIGHTS IN CHINA: THE 2015 ANNUAL REPORT OF THE CONGRESSIONAL- EXECUTIVE COMMISSION ON CHINA</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]




                 HUMAN RIGHTS IN CHINA: THE 2015 ANNUAL
                 REPORT OF THE CONGRESSIONAL	EXECUTIVE
                          COMMISSION ON CHINA

=======================================================================


                                HEARING

                               BEFORE THE

                  SUBCOMMITTEE ON ASIA AND THE PACIFIC

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 12, 2016

                               __________

                           Serial No. 114-147

                               __________

        Printed for the use of the Committee on Foreign Affairs


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

98-312 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
DANIEL DONOVAN, New York

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

                  Subcommittee on Asia and the Pacific

                     MATT SALMON, Arizona Chairman
DANA ROHRABACHER, California         BRAD SHERMAN, California
STEVE CHABOT, Ohio                   AMI BERA, California
TOM MARINO, Pennsylvania             TULSI GABBARD, Hawaii
JEFF DUNCAN, South Carolina          ALAN S. LOWENTHAL, California
MO BROOKS, Alabama                   GERALD E. CONNOLLY, Virginia
SCOTT PERRY, Pennsylvania            GRACE MENG, New York
SCOTT DesJARLAIS, Tennessee


















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Christopher H. Smith, chairman, Congressional-
  Executive Commission on China..................................     4
The Honorable Timothy J. Walz, ranking House Member, 
  Congressional-Executive Commission on China....................    10

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Christopher H. Smith: Prepared statement...........     7

                                APPENDIX

Hearing notice...................................................    20
Hearing minutes..................................................    21
The Honorable Matt Salmon, a Representative in Congress from the 
  State of Arizona, and chairman, Subcommittee on Asia and the 
  Pacific: Statement of the Honorable Marco Rubio, a Senator in 
  Congress from the State of Florida.............................    22
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    26
 
                 HUMAN RIGHTS IN CHINA: THE 2015 ANNUAL
                      REPORT OF THE CONGRESSIONAL-
                     EXECUTIVE COMMISSION ON CHINA

                              ----------                              


                       TUESDAY, JANUARY 12, 2016

                       House of Representatives,

                 Subcommittee on Asia and the Pacific,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:45 p.m., in 
room 2172, Rayburn House Office Building, Hon. Matt Salmon 
(chairman of the subcommittee) presiding.
    Mr. Salmon. The subcommittee will come to order.
    When Chinese President Xi Jinping visited the United States 
in September 2015, cybersecurity, environmental concerns, and 
maritime disputes dominated discussions, leaving human rights 
advocates disappointed that the administration did not use this 
opportunity to make more headway on human rights issues.
    As we venture to address the wide range of challenges we 
face in our relationship with China, we must not lose sight of 
the importance of human rights and the rule of law in this 
bilateral relationship.
    The U.S. Government has paid particularly close attention 
to human rights in China since the 1989 Tiananmen Square 
massacre and, for many years, monitored human rights 
developments through an annual review of China's most-favored-
nation trading status. I believe that was also called Jackson-
Vanik.
    In 2000, legislation to grant permanent normal trade 
relations with China, which I voted in favor of, included 
provisions to ensure continuing monitoring of the human rights 
and the rule of law in China through the establishment of the 
Congressional-Executive Commission on China.
    The Commission has shouldered this daunting task ever 
since, and I commend the commissioners and staff on their hard 
work and recently released 2015 annual report. The report 
covers the gamut of human rights issues and provides several 
policy recommendations.
    The Commission's annual reports have drawn attention to the 
rise of religious persecution in China, suppression of free 
speech, and less respect for due process in politically 
sensitive cases.
    I would like to take this time to draw attention to some of 
the troubling human rights developments in the PRC.
    Consider freedom of religion. Chinese policy toward 
religious freedom varies by religion and group, and its 
constitution officially protects normal religious activities 
that do not disrupt public order, impair the health of 
citizens, or interfere with the educational system of the 
state.
    However, the PRC imposes harsh and arbitrary penalties on 
unregistered religious organizations, including Christian 
churches, imposes several restrictions on religious practice by 
Tibetan Buddhists and Uyghur Muslims, and persecutes Falun Gong 
practitioners. Tibetans and Uyghurs are often targeted under 
the guise of crackdowns of alleged extremist and terrorist 
activities.
    I would like to hear from the panel on the status of 
religious freedom in China.
    In Hong Kong, we have seen the blossoming and the 
suppression of an emerging democracy over the past few years. 
The pro-democracy demonstrations and the famous Umbrella 
Movement have shown the world people's excitement for democracy 
and basic human liberties.
    We have also seen reports of Hong Kong booksellers selling 
or publishing books critical of President Xi and other Chinese 
officials mysteriously disappearing and perhaps being abducted, 
taken to mainland China from Hong Kong and Thailand. If true, 
such behavior is reprehensible--and I would concur with the 
statement you made: It is beyond reprehensible; it is evil. And 
I hope for the swift and safe return of these individuals as 
well as their three colleagues reportedly being held in 
mainland China for unknown reasons.
    I look forward to hearing the updates on the situation in 
Hong Kong.
    China's infamous one-child policy was instituted in 1980 to 
control population levels and has involved decades of inhumane 
forced abortions and sterilizations, fines, and other 
sanctions. This draconian policy has resulted in lopsided 
gender ratios in China's younger generations and an emerging 
demographic crisis for the entire country.
    We saw the announcement late last year of the government's 
plan to move to a two-child policy and would like to hear 
updates about that from the panel.
    Human rights organizations rank China near the bottom for 
Internet freedom and freedom of expression. Not only does China 
block Web sites, including major newspaper and social 
networking sites, it has imprisoned dozens of journalists and 
other citizens for posting information deemed critical of the 
PRC and the Communist Party.
    I have only highlighted a few of the many human rights 
issues that persist in China today. The Commission embodies 
congressional concerns about human rights in China, and I 
really look forward to hearing from the panel on what more we 
can do. We certainly welcome policy recommendations and hope to 
have a constructive conversation to encourage improvements in 
the rule of law and human rights conditions in China.
    Members present will be permitted to submit written 
statements to be included in the official hearing record. 
Without objection, the hearing record will remain open for 5 
calendar days to allow statements, questions, and extraneous 
materials for the record, subject to the length limitation in 
the rules.
    And we are privileged--did the ranking member have a 
statement he wanted to make?
    Mr. Sherman. Why not.
    Mr. Salmon. Happy to entertain that.
    Mr. Sherman. I do, indeed. Mr. Chairman, thank you for 
holding this timely hearing.
    And I want to thank Mr. Smith and Mr. Walz for their work 
with the Commission. Since Congress created the Commission in 
the year 2000, the Commission has done some very thorough and 
important work in documenting and analyzing human rights issues 
in China. I want to endorse the Commission's findings as stated 
in the executive summary.
    It is increasingly clear that China's domestic human rights 
problems are of critical interest to U.S. foreign policy. There 
is a direct link between concrete improvements in human rights 
and the rule of law and the security and prosperity of both the 
United States and China.
    The Chinese Government has raised hundreds of millions of 
people out of crushing poverty, but they can't go forward 
beyond where they are now, economically or socially, unless 
they follow the rule of law and provide for human rights. 
Without stronger rule of law in China and without healthy 
respect for the will of the people and their individual rights, 
it is impossible for China to be a credible partner on issues 
that matter to the American people.
    Trade is one of those. Tied to the rule of law and human 
rights are China's unfair trading practices. From subsidies to 
state-owned enterprises, both hidden and overt, to currency 
manipulation, the Chinese Communist Party has shown itself 
ready to pursue its own perceived short-term interest at the 
expense of written agreements with the United States and at the 
expense of transparent accounting to their own people.
    Beyond the issue of American prosperity, the Commission's 
work is shining a light on the human cost of the excesses that 
accompany the single-party rule of the Chinese Communist Party. 
It is deeply disturbing to see the Commission's evaluation that 
human rights and the rule of law continue to deteriorate in 
China.
    The list is long: The inhumane enforcement of the one-China 
policy, as to which we have seen some amelioration; the 
trafficking of persons, men, women, and children, for forced 
labor and sexual exploitation; harassment of religious groups, 
most notably the Falun Gong that we have just discussed; 
rigging the rules for voting in Hong Kong. Many on this 
committee and subcommittee have--I was there with Steve--stood 
shoulder-to-shoulder with democracy advocates in Hong Kong, and 
there have been a host of other codels that have done the same 
thing.
    Pervasive restrictions on the expression in print and 
online; the suppression of ethnic minorities, from Tibet to the 
Uyghurs; detention of labor leaders, denying them the right to 
organize, which, of course, not only denies their rights but 
adversely affects American workers that would like to compete 
in the world on a fair basis.
    This is a sobering set of problems, and I would advise 
those who believe the Communist regime is evolving into a 
modern, developed, and humane system to read the Commission 
report.
    And, with that, I yield back.
    Mr. Salmon. I thank the gentleman.
    We are privileged today, this afternoon, to hear from two 
of our colleagues: Mr. Chris Smith of New Jersey, chairman of 
the Congressional-Executive Commission on China; and Mr. Tim 
Walz, ranking House Member of the Commission. And we are 
grateful to both of these witnesses for joining us today and 
presenting the Commission's findings.
    So I will start with you, Mr. Smith.

  STATEMENT OF THE HONORABLE CHRISTOPHER H. SMITH, CHAIRMAN, 
          CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

    Mr. Smith. Thank you very much, Chairman Salmon and Ranking 
Member Sherman and the subcommittee, for holding this important 
hearing and inviting my good friend and colleague, Tim Walz, to 
be here to make a presentation and to answer any questions.
    The 2015 report is a comprehensive, heavily documented 
review and analysis of human rights and the rule of law, or, 
more aptly spoken, the lack of rule of law, in the People's 
Republic of China. It is an impressive undertaking and is the 
work of an equally impressive and dedicated staff.
    The Commission's 2015 report comes to the troubling 
conclusion that the Chinese Government's efforts to ``silence 
dissent, suppress human rights advocacy, and control civil 
society'' are broader in scope than in any other period 
documented since the Commission started issuing reports in 
2002. That is distressingly bad news not only for the great 
people of China, who long to be free, but also for China's 
neighbors and, by extension, the rest of the world.
    President Xi Jinping and the current cohort of China's 
leaders tolerate even less dissent than previous 
administrations. In the past year, China's leaders expanded the 
use of legal statutes and a pervasive security apparatus to 
maintain the Communist Party's leading role and power over the 
country.
    Torture and arbitrary detention remain grave problems, 
employed with impunity by the security forces to silence 
dissent and discourage religious groups and ethnic minorities 
from seeking greater freedoms. Indeed, in early December, 
December 2 and 3, the U.N. torture reports, the fifth in a 
series, act as a scathing indictment of the systematic use of 
torture by leaders in China. We will be holding a hearing in 
our Commission on January 26 to probe even deeper into this 
horrific use of torture on people in China.
    In our Political Prisoner Database, which we believe is the 
best in the world, the Commission has carefully compiled the 
information of over 8,000 cases, including over 1,300 currently 
detained prisoners of conscience. This is the database. It is 
accurate. It is used increasingly by people all over the world. 
We saw a 36-percent increase in access to the prisoner base 
from 2014 to 2015.
    Among the list are Nobel Peace Prize winners like Liu 
Xiaobo, journalists, human rights lawyers like Gao Zhisheng, 
labor activists, advocates for democracy, as well as those who 
are fighting for minority rights, Tibetans, Uyghurs, Falun Gong 
practitioners, as well as Christian and Buddhist religious 
leaders, whose peaceful religious activities are somehow viewed 
as threatening to China's social order or national security.
    The 2015 report also documents the highly coercive 
population control policies in effect since 1979 into the year 
1980 and shows that this is nothing less than state-sponsored 
violence against women and girls. The report includes details 
on the methods used to enforce birth restrictions, including 
forced abortion and involuntary sterilization, heavy fines, 
draconian fines, the withholding of social benefits, the loss 
of jobs, arbitrary detention of couples that have a child 
without government permission. You need a birth-allowed coupon 
from the government in order to have a baby in the People's 
Republic of China.
    Despite the platitudes given to China for the recently 
announced two-child-per-couple policy, the pernicious structure 
of coercion remains completely in effect. Chinese families are 
not free to determine the size of their own families and not 
when they might have that child. It remains illegal for single 
women to have a child. There is still pressure to forcibly 
abort a child, again, if the pregnancy is not approved by the 
state.
    In addition, the two-child policy does little to stem the 
massive problem of human trafficking in China. We have seen 
huge increases in forced marriages, documented in the report, 
and sexual slavery in China. Trafficking from Vietnam, 
Cambodia, and Burma have increased in recent years, in part 
because there are an estimated 30 million, some say as many 40 
million, young men who are unable to find wives or start 
families because of the skewed sex ratio. The girls, the women, 
simply don't exist.
    In fact, Mr. Chabot's bill on Girls Count is an important 
contribution, and we make mention of this in the report, that 
if we really had a systematic effort to enforce that globally, 
we would see, I think, even greater clarity on the missing 
daughters of China.
    So thank you, Chairman Chabot, for that bill and that law.
    There is so much detail and information included in this 
year's annual report we don't have time to summarize it all. I 
am seeing the clock is winding down. But China has issued a 
series of new national security laws just last year that give 
even more unprecedented powers to domestic security forces that 
seek to limit the exchange of people and ideas. The NGO law is 
a draconian effort to end NGOs as we understand them.
    Despite President Xi's public commitment to implement the 
rule of law, that is often a cover for lawlessness, as the 
pervasive use of torture, as I mentioned, and detention, 
especially when it is done in a way that people don't even know 
where the detainee is--so there is no access to a lawyer--is 
increasing, not decreasing.
    Chinese authorities continue to rein in on the media, the 
Internet, and social media, especially if they are in any way 
criticizing the government.
    China continues to rank with Iran, Vietnam, and Saudi 
Arabia in terms of the misery it inflicts on religious 
believers. And the government sometimes seeks to co-opt those 
religious--you asked the question, and during Q&A we can expand 
upon it--but the crackdown on the Falun Gong, 17 years in the 
making, the crackdown on even those churches that are 
officially recognized, like the Three Self and the Patriotic 
Church, the Catholic Church--they have found themselves in the 
cross-hairs over the last year by the Chinese dictatorship.
    The report shows little progress with regards to WTO 
obligations, and we expand upon that in detail. And the actions 
of the Chinese and Hong Kong Governments during the past year 
raise serious concerns about the future of Hong Kong's 
autonomy, press freedoms, and the rule of law.
    The idea that somehow more trade would bring about a 
matriculation to democracy has crashed and burned. This report 
again underscores that. Well-meaning as it was, we now know 
beyond any reasonable doubt they have taken that hard currency 
and it has increased their ability, as a dictatorship, not only 
to repress their own people but to project power all over the 
world.
    I thank the chair.
    [The prepared statement of Mr. Smith follows:]
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
                              ----------                              

    Mr. Salmon. Thank you.
    Mr. Walz?

   STATEMENT OF THE HONORABLE TIMOTHY J. WALZ, RANKING HOUSE 
      MEMBER, CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

    Mr. Walz. Well, thank you, Mr. Chairman and Ranking Member 
and members of this committee. Thank you for making this a 
priority.
    And I want to thank my chairman, Mr. Smith. This Congress 
has no more passionate, committed human rights champion than 
Chris Smith, and he proves it year after year, and I am 
grateful for that.
    And as Mr. Smith said, you see sitting behind us one of the 
most dedicated staff you will ever find in compiling the 
database and putting out this, what I consider to be, 
critically important document in leading how--again, the most 
important relationships in the world, between the United States 
and the People's Republic of China, and making sure that we are 
focusing on the human rights aspect of it. So I am grateful for 
that.
    My involvement in China goes back about three decades. I 
started out with being one of the first group of young high 
school teachers to teach in Chinese high schools back in the 
1980s; continued on with cultural exchanges and visiting 
fellowships at different institutions in China.
    I have been to China dozens of times, and as I always say, 
I am about one trip away from knowing nothing about China, it 
feels like. It is complex; it is difficult. But I can tell you 
this: I have been on those dozens of trips to Hong Kong, and I 
have never quite felt the sense of concern that I have felt 
over the last couple months. I was in Hong Kong; in Lhasa, in 
Tibet; and in Beijing. And it is a challenge.
    And I think many of us recognize--and I am glad that the 
chairman mentioned it--the decoupling of most-favored-nation 
status to human rights was something, and I, too, supported 
that. And I think the idea was, with a free-market economy, we 
would see a more opening of the Chinese grip on social life and 
on human rights. That simply has not occurred.
    And so I think there needs to be the focus on what the 
Commission says. I would say I think the report is correct; it 
is getting worse, not better. It extends from, as you heard, 
the things Mr. Smith said.
    And I can tell you, the NGO law is incredibly draconian. 
What is really interesting to me is every person I talk to in 
China--and this has been in the last few weeks. We were in Hong 
Kong meeting with a group of the American Chamber of Commerce, 
and it was the bankers who were deeply concerned about this. It 
is not Bankers Without Borders type of folks, that they 
understand that the critical aspect of international 
cooperation and all of the things that you build to build civil 
society and across nations are going to be jeopardized if this 
NGO law goes into effect. And, again, it is meant, as I heard 
one of my colleagues up here say, it is about them controlling 
it, controlling that piece of information. It is dangerous.
    I will have to tell you, Hong Kong and the basic rule of 
law that was drawn out is under assault. I never thought I 
would see it. Anson Chan, who many of you are very familiar 
with, I viewed as she was the person that helped transition 
this and was reassuring us that everything was going to be fine 
in this transition. She is now coming back and saying, ``I was 
wrong. It is not going to be fine.'' It is being undermined.
    We met with the bishops of the Catholic Church there. They 
are being undermined. The Chinese are appointing those, the 
bishops, instead of that. The lawyers being arrested--and, 
again, China continues to articulate they want to have rule of 
law. There is a difference between rule of law and rule by law, 
or rule by lawlessness, however you are using it. If you are 
using the law to oppress those very people, if the lawyers who 
are there--and keep in mind, these are people who were arrested 
trying to defend women, who were defending women's rights 
issues in China. They were arrested. Their lawyers were 
arrested. It has had a chilling effect across the society.
    And if you get some time and there are some questions, the 
situation in Tibet--and I want to be very clear. When I was 
there--and I mentioned to someone, I said, ``Oh, the last time 
I was in Tibet I think was late 1989,'' and the Chinese 
Government official said, ``No, it was February 1990.'' I said, 
thank you for reminding me because I had forgotten when that 
was. They knew.
    And I did say, when it took me 6 days by bus to get there 
in 1990, now we flew in next to a railroad. There is no denying 
China's economic growth and China's ability to raise standards 
of living. They should rightfully be proud of that. China has 
moved many people out of poverty and moved them into a more 
stable and more prosperous existence. But we cannot decouple 
economic growth from human rights growth, and, as a Nation, we 
need to hold those ideas up.
    And in all fairness, sitting in the deepest heart of the 
Forbidden City, having a spirited debated with the Premier of 
China over Tibet and talking about the Dalai Lama, his comeback 
to me was, he said, Congressman, I think you also taught in 
Pine Ridge, did you not? And I said, yes, I did. He said, how 
did that work out for you? And I said, no one here is defending 
what happened to the Native Americans. We are pointing out that 
nations need to understand how you move forward, how you learn 
from these.
    I thought, to tell you the truth, their willingness to at 
least engage this and not pretend--I mean, making that 
comparison, to me, was telling, that they were getting there.
    And it wasn't about lecturing, and I don't think that is 
what the Commission and Mr. Smith is about, but it is about 
speaking truth to power. It is about speaking for those that 
don't have the voice. It is about understanding that those 
basic human rights, whether it be trafficking, whether it be 
draconian family planning programs, NGOs, or many of the other 
issues, if we don't say it, no one will.
    And I would close with this and ask you--I asked activists, 
when we met with families under, you know, cloud of dark 
because their lawyer husband had been arrested, or we met with 
dissidents in Hong Kong or in Tibet, I asked each one of them, 
does it help or hurt when we speak about this? And they said, 
``Please don't ever stop speaking about it. Please tell our 
story. Please tell what is going on. It is critically 
important.''
    So, Chairman and Ranking Member, members of this committee, 
I thank you for doing just that. And I am certainly open for 
questions.
    [Mr. Walz did not submit a prepared statement.]
    Mr. Salmon. I thank the two gentlemen for the very 
effective and well-done report. I thank you also for your 
commitment to human rights--all across the globe, but we are 
focusing on China today.
    Mr. Walz, I had an opportunity back in the nineties to go 
into Tibet, as well, and spent a couple of days, you know, with 
many of those monks, interviewed them. And then I, about 6 
months later, went to Dharamsala and spent about 3 days with 
the Dalai Lama to talk about the issues of Tibet.
    I was a missionary when I was a young man for my church in 
Taiwan, and I learned a lot about the culture. I learned the 
language while I was there. I have been over to China probably 
close to 50 times.
    And when I debated the issue of permanent normal trade 
relations back when President Clinton was President, it was a 
very robust debate. And I was on one side of the fence, and I 
remember the other side of the fence was a couple of people I 
have a lot of love and admiration for. One of them was sitting 
right before me, Chris Smith, and another one was a guy that is 
not here anymore, Frank Wolf, and, on your side, Nancy Pelosi, 
who made some very credible arguments about, you know, how the 
decoupling of trade and human rights through this activity 
could be very, very harmful.
    And I remember saying at the time that I truly did believe 
that moving on the continuum of a person's basic needs, that 
once they opened the box on a free market that it was hard to 
suppress the other things that I believed would come naturally 
with that. And so I prognosticated that, by passage of PNTR, 
that in the not-so-distant future we would see a robust 
movement, improvement if you will, of human rights issues.
    And I am still trying to scrape that egg off my face to 
this day, because it never happened. I think with the first 
couple of Presidents there was some movement, some movement, 
but I believe that under this current regime they have taken 
some big steps backward. And all the dreams and the things that 
I hoped would happen with the free trade, they just didn't 
materialize, and I am very, very disappointed.
    Mr. Walz. Mr. Chairman, if I could say--and I hear exactly 
what you are going through, because I do this too. The thing I 
would say, though, is it has inspired those dreams amongst the 
people, that it did do that. And the opening of the market and 
what is available and the middle class and what their children 
could achieve to or whatever, it has done that.
    The problem is that I think we thought there would be more 
of a movement amongst or more of the desire. But I think it 
also comes through when people--some of my colleagues who were 
along on this latest trip were amazed that the students at 
Peking University didn't really know what happened on June 4, 
1989. I said, ``That is not so surprising. What is more 
troubling to me is that students here might not know what 
happened.''
    And so I hear your struggle with this, but----
    Mr. Salmon. Well----
    Mr. Walz [continuing]. I also think it made a difference 
among----
    Mr. Salmon [continuing]. You know, I see people that are 
just, you know, regular citizens that come up with phenomenal 
ideas, and then they make money, and they get out of the 
poverty that they have been living in. And that kind of 
mobility has been a good thing. But not nearly enough good 
things have happened in the realm of human rights improvements 
that we all desire.
    I was at the handover ceremony for Hong Kong, and I 
remember at the time meeting with Anson Chan and meeting with 
Martin Lee and, you know, getting different messages about what 
this ``one-China, two systems'' was going to mean. And I 
believed in my heart that China would respect that sovereignty, 
if you will, if that is the best term for it, that delineation 
of two governments within a government, letting Hong Kong 
operate in an autonomous way. But yet it has never materialized 
in the selection of their chief executive--never materialized.
    And that is why we saw the Umbrella Movement. That is why 
we saw the student protests and the uprising. I had an 
opportunity myself last year to go and meet with a lot of those 
students and freedom fighters, and they are hoping that their 
trusted friends here in the United States will not leave them 
by the wayside. They are hoping with all their hearts that we 
will continue to call attention to the need to allow them to be 
able to choose their own path and their own leaders.
    And so I didn't mean to, you know, kind of go into some 
kind of a soliloquy here, but the fact is what you are doing is 
so incredibly important, and I appreciate it. And I believe 
that, as we go forward, we need to have a strong bilateral 
relationship with China, but that doesn't mean that we are not 
honest and that we don't stand up for the values that have made 
us a great Nation and to be that shining city on a hill that we 
have always been.
    Mr. Smith, I am sorry for all those comments. I wanted to 
ask a question or two, but I have used my time. I don't mean to 
filibuster either, so I am going to turn it over to Mr. 
Sherman.
    Mr. Sherman. China is undergoing a real economic stress. 
Its Chinese party derived its support, arguably its legitimacy, 
not from any ideological reason. You know, if you believe in 
the divine right of kings, well, then a king has legitimacy. If 
you believe in democracy, winning an election gives you 
legitimacy. If you believe in Marxist Leninism, then if you are 
the vanguard of the proletariat, you have legitimacy. They are 
not the vanguard of the proletariat. So they achieve their 
legitimacy chiefly by saying, hey, we deliver better economic 
growth. They are not doing that now.
    Do you see them relaxing their control in order to gain the 
economic benefits of the rule of law or retrenching their 
dictatorship as a reaction to, well, hey, we may be less 
popular because the economy is not doing as well, so we are 
going to have to smash more heads in?
    Mr. Smith?
    Mr. Smith. I think it is more the latter, I would say to my 
good friend from California.
    Let me just, you know, to Chairman Salmon, we had the exact 
same goal, all of us, and it was to promote democracy, freedom, 
and human rights for the great people of China. Unfortunately, 
they were not players. They gamed the system. They continue to 
do so.
    And I think, to the question just asked, we are looking at 
a dictatorship that is flush with power. It is making money 
hand over fist all over Africa. It is trying to export its bad 
governance model all over the world. That is why people like 
Bashir in Sudan and others, you know, prize the Chinese 
relationship, because they ask no questions about human rights 
and democracy and freedom. We do. The West does, as well.
    So I think they feel there has never been a real penalty 
phase for their gross human rights abuse.
    On the population control program, for example, I have been 
raising that issue doggedly since 1983, when I first learned 
about it; offered the first bill in Congress to criticize it, 
call it crimes against humanity.
    And, recently, the former director of the Brookings Center 
for Public Policy, Wang Feng, said that history will judge the 
one-child policy as worse than the cultural revolution--worse. 
It has so horribly impacted upon women especially. They have 
6,000 suicides per day--not week, month--per day. And that is 
from their own CDC numbers, largely attributable to this 
draconian policy which just invades women and kills their 
babies and hurts them.
    On all these other issues----
    Mr. Sherman. I do want to sneak in one more question.
    Mr. Smith. Sure. But all the other issues, the whole basket 
of human rights issues, they have not been held to account. 
And, unfortunately, they have been rewarded, unfortunately, 
with more economic benefits, more access. There are 90 
bilateral----
    Mr. Sherman. Mr. Smith, I would like to sneak in another 
question.
    We have had a dedication to the free flow of information. 
In the era when we confronted Soviet Communism, we had Voice of 
America, and they would jam it. So the technological battle to 
push in the free flow of information was something we engaged 
in. We used our skill to get around the jamming.
    Well, today it is not about shortwave radio; it is about 
the Internet. We see the great firewall of China, the jamming 
of the 21st century. But what I don't see is all of the 
intellectual capacity of Silicon Valley being used to smash 
that wall.
    Mr. Walz--and I realize I, at least, am not a technological 
expert, and this may be something you would want to pursue with 
the Commission. But could the United States offer a contract or 
prize to those in Silicon Valley who can crack the great 
firewall of China, defeat these efforts, and let everyone in 
China who is online be online to the World Wide Web?
    Mr. Walz. Yes, I think so. But the problem we have had--and 
we have had this hearing--American companies have helped be 
part of that firewall. And that is the problem.
    And I would say this is a very sticky subject for all of 
us, and I think many of you have hit on it. Your question was, 
are they entrenching? Yes, I do believe they are entrenching. 
China changes when it is in China's interest or when there is a 
penalty for it.
    All of a sudden now, you saw--we got a real big 
breakthrough on cybersecurity when President Xi was here. That 
is the untold story. We got a good deal on cybersecurity. Well, 
was that because of great negotiations here? I am sure some of 
you would say, ``No. We haven't seen that.'' I will tell you 
what happened, was China now has intellectual property that 
other countries are stealing, so now they are concerned about 
it, so they are involved with this. That is in our best 
interest, to bring them into this.
    The issue in the South China Sea is simply unacceptable, in 
the Spratly Islands and some of the issues they are doing 
there, but China is not about to disrupt global international 
trade. It is what they do. But they do want to flex some of 
their muscles.
    So the answer is, yes, that we can get them, yes, when 
companies are there. But I would leave you with this, and maybe 
the next question will come up, is, how much pain are we 
willing to take to make them pay for it economically? Because 
Mr. Smith is right; they have been rewarded for this. And if it 
is all about commerce alone, without an accountability piece on 
the human rights, they will continue to do it.
    When the issue of intellectual property started to hurt, 
they changed. When the issue of human rights or some of the 
issues that you have heard mentioned here hurt, I believe that 
is when they will change their behavior. But, right now, I have 
to tell you, I am more pessimistic than I have been in many 
years because they are still continuing to benefit from it.
    Mr. Sherman. I look forward to working with the members in 
the room on legislation to prohibit U.S. companies from helping 
this great wall of China. And I look forward, if we can get 
some appropriations, to actually funding an effort to defeat 
it.
    And I yield back.
    Mr. Smith. If I could, Mr. Chairman?
    Mr. Sherman. I yield to the gentleman from New Jersey.
    Mr. Smith. Just briefly, a couple of points.
    In 2006, I chaired a hearing right here, and we had the top 
people from Google, Microsoft, Cisco, and Yahoo sworn in. I 
swore them in. And, at that point, they were completely 
manipulating the search engines of the Internet, especially 
Google and Yahoo, and Cisco was helping with an enormous 
project that was literally helping the public security 
apparatus, the police, the secret police, to surveil and find 
out when anybody went online and logged in.
    They have gone from bad to worse on Internet restrictions. 
Our report deals with that extensively. I have introduced a 
bill called the Global Online Freedom Act, which would prohibit 
the export of those items to China, where they have the 
capability to help their police.
    We did that with apartheid. There were certain things that 
the police could not get in South Africa from the United 
States, put on the no-export list, because it aided and abetted 
that kind of repression, you know, apartheid by South Africa 
and in this case in China.
    I would ask you to take a look at the section. It is very 
real. I think Google and others have learned a hard lesson as 
the indigenous facsimiles of Google, like Baidu and the others, 
have literally pushed them out almost completely, not 
completely, taken over, pirated their software. Intellectual 
property rights are not respected by the Government of China, 
so they just steal it, make it their own. And, you know, shame 
on us for not seeing that coming, but it is not too late 
because, obviously, the Internet and all of those things are 
continuing to evolve. All the more reason why that legislation 
needs to move.
    And I thank my friend.
    Mr. Salmon. Thank you.
    Mr. Rohrabacher.
    Mr. Rohrabacher. Well, thank you very much.
    And thank both of you for being with us to focus our 
attention on what is going on in China.
    I remember Tiananmen Square. I think that that was a 
historic turning point for the worse. 1989, Herbert Walker Bush 
was President of the United States. And we had just had Ronald 
Reagan, he had just replaced Ronald Reagan. And under Ronald 
Reagan, we set in motion--I was happy to be part of his team--
we set in motion the--how do you say--the dynamics that would 
bring down the Berlin Wall, would have the Soviet troops 
withdrawing from Central Europe, and, yes, the democratization, 
as rocky as it has been, in what was the Soviet Union and now 
is a somewhat democratic Russia, although lots of flaws.
    And then, in 1989, when George Bush was President and 
Tiananmen Square happened, I believe that had Herbert Walker 
Bush called the Chinese leadership and told them that if they 
used their military to suppress Tiananmen Square all the deals 
that we had made are off, all the economic deals--that is what 
Ronald Reagan would have done, and that is how Ronald Reagan 
would have created a freer world. But Herbert Walker Bush 
created a world in which we have a monster state that threatens 
the peace and stability and represses over 1\1/2\ billion of 
their own people.
    And we then embarked, under the leadership of Herbert 
Walker Bush and then, of course, every President since then, of 
a policy designed to increase the economic power of a country 
that was ruled by a totalitarian government. And as the 
witnesses have stated, it was done with the excuse that making 
them more prosperous would make them more democratic, make war 
less likely, et cetera.
    And I take it that both of the witnesses--and you may 
comment on it--now say that theory was totally false and 
basically is what has led us to the evil situation that we have 
today. Is that correct?
    Mr. Smith?
    Mr. Walz?
    Mr. Smith. Yes, I believe that.
    Mr. Walz. Well, I think so, but I think it is hard, too. I 
think Mr. Rohrabacher summed it up. I do think there are 
frustrations with that. I think it is hard to say what 
containment would have done, and not doing anything. But I do 
think, as a Nation, that we can't decouple our economic 
interests from our human rights and our values. So, on that, I 
agree with you on that.
    Mr. Rohrabacher. Right. And with this policy, we actually 
made ourselves vulnerable if we tried to enforce our own 
standards.
    Mr. Walz. That is true.
    Mr. Rohrabacher. It would then be very detrimental to our 
economy and our people in order just to maintain the standards 
that we supposedly believe in.
    Mr. Smith. Chairman Rohrabacher, if I could just respond 
quickly.
    Mr. Rohrabacher. Yes. Go ahead.
    Mr. Smith. You know, Herbert Walker Bush obviously was once 
our Ambassador to China and really thought that he knew the 
Chinese leadership or how they might respond. When he sent 
Brent Scowcroft there after Tiananmen Square, that was a major, 
major mistake, in my opinion.
    Bill Clinton properly said that he was coddling 
dictatorship. He made a famous speech along those lines.
    Mr. Rohrabacher. I remember.
    Mr. Smith. But then he, Bill Clinton, came into town. We 
had the votes in a bipartisan way to take MFN away unless there 
was significant improvement in human rights. You know, Nancy 
Pelosi on the Democrat side, I and many others on the 
Republican side, we had the votes, in my opinion. And the 
President did an Executive order that said, unless all of these 
criteria are met--and it was an excellent Executive order--MFN 
is a goner. We were conditioning our trade with human rights.
    In May 1994, on a Friday afternoon after just about 
everybody left this place, President Clinton ripped in half his 
Executive order and decoupled human rights from trade. That is 
when the Chinese Government took their measure of us and said, 
``They just care about profits.''
    Mr. Rohrabacher. So instead of making them more democratic, 
our association and interaction economically with the Chinese 
have actually made us less democratic. What you just described, 
waiting until everybody is out of town in order to make a 
fundamental change, is not consistent with what a free society 
does.
    Let me note that on most of the petitions and most of the 
letters and most of the demands and the bills that you are 
talking about, I think you will find my name right underneath 
yours. And I always, always, always respected your leadership 
on this.
    One last note. It has been stated quite often, when you 
talk to the people about the current situation in China, that 
they say, well, now there are Christians in China. There are 
more Christians in China than there are in the United States, 
but they are in their churches.
    And here is what we have to remember. There were other 
periods in China that the Chinese people are very familiar 
with, and that is that they are told, if their church 
registers, they don't have anything to fear. Okay. But we know 
very well--and there are many churches that people have 
registered.
    But we know that, shortly after taking over China, the 
Communists had, Mao Zedong initiated what they call, ``Let a 
hundred flowers bloom.'' And what happened was--this was to 
open up. It was like the new--it happened under Lenin, too, if 
you remember, the new economic order. There always seems to be 
an opening in which then the totalitarians come in, and they 
know exactly who to go to.
    And so the people who are religious followers, as the Falun 
Gong now are fully aware, are targeted. And whether or not they 
are going to wait until after the flowers have bloomed or 
whether something else will cause the trigger to be pulled, 
they know they are in jeopardy.
    We still have a totalitarian government, as your 
testimony--as the chairman has stated. We have a totalitarian 
power in charge of a huge hunk of the planet. We have been 
subsidizing and increasing the power of that government. It is 
time that we stop doing that, find a policy that will create 
more freedom and less likely to have conflict, and a government 
that is more consistent with the type of things we believe in 
as our gifts given by God, rights of every person.
    And, with that said, thank you very much.
    Mr. Salmon. I would like to thank both the gentlemen for 
their testimonies today, but, moreover, I would really like to 
thank you for all the wonderful work that you have done with 
the Commission and just encourage you to continue doing all the 
great work that you are doing. Billions and billions of people 
are counting on a positive outcome and the light that we can 
shine on these issues, because wickedness hates the light. And 
so I hope we keep doing that.
    So thank you very, very much.
    And, without any objection, this meeting is adjourned.
    [Whereupon, at 3:29 p.m., the subcommittee was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record
         
         
     [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
         
         
         
  
   Material submitted for the record by the Honorable Matt Salmon, a 
  Representative in Congress from the State of Arizona, and chairman, 
                  Subcommittee on Asia and the Pacific



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                                 [all]
</pre></body></html>
